               Offices of
           Inspector General


Board of Governors of the Federal Reserve System and
       Bureau of Consumer Financial Protection

            Department of the Treasury



     Review of CFPB Implementation
           Planning Activities


                   FRB OIG 2011-03
                     OIG-11-088



                    July 15, 2011
 
Contents

Evaluation Report

  Background ................................................................................................ 2

  Results of the Joint Review .......................................................................... 6

      CFPB Identified and Documented Mission-Critical Activities and Legislative
      Mandates............................................................................................... 6

      CFPB Developed and Is Implementing Appropriate Plans ............................. 7

      CFPB Communicated Its Planning and Implementation Activities ................... 11

Appendices

  Appendix 1:         Objective, Scope, and Methodology ........................................             13
  Appendix 2:         Status of Leadership Positions for CFPB’s Headquarters as of
                      June 17, 2011 .....................................................................    15
  Appendix 3:         Management Comments ........................................................           16
  Appendix 4:         Major Contributors to This Report ...........................................          17
  Appendix 5:         Report Distribution ................................................................   18

Abbreviations

  Board                        Board of Governors of the Federal Reserve System
  CFPB                         Bureau of Consumer Financial Protection
  Dodd-Frank Act               Dodd-Frank Wall Street Reform and Consumer Protection Act
  FDIC                         Federal Deposit Insurance Corporation
  HUD                          Department of Housing and Urban Development
  NCUA                         National Credit Union Administration
  OCC                          Office of the Comptroller of the Currency
  OIG                          Office of Inspector General
  OTS                          Office of Thrift Supervision
  Treasury                     Department of the Treasury




                      Review of CFPB Implementation Planning Activities                                  Page i
                     Offices of Inspector General



                      July 15, 2011

                      Elizabeth Warren
                      Special Advisor to the Secretary of the Treasury on the
                        Consumer Financial Protection Bureau

                      This report presents the results of our offices’ joint evaluation of
                      the implementation planning activities of the Bureau of Consumer
                      Financial Protection (CFPB). The Dodd-Frank Wall Street Reform
                      and Consumer Protection Act (Dodd-Frank Act), enacted July 21,
                      2010, established CFPB as an independent agency within, but
                      autonomous from, the Federal Reserve System. The Dodd-Frank
                      Act provided CFPB with the authority to implement and, as
                      applicable, enforce federal consumer financial law consistently to
                      ensure that all consumers have access to markets for financial
                      products and services, and that these markets are fair, transparent,
                      and competitive.

                      We conducted our evaluation as part of our respective offices’ joint
                      oversight responsibilities of CFPB.1 Our objective was to evaluate
                      CFPB’s development and execution of implementation plans and
                      timelines to establish the agency’s functions, including certain
                      activities required by the Dodd-Frank Act. As part of this effort, we
                      assessed CFPB’s efforts to (1) identify mission-critical activities
                      and legislative mandates, (2) develop and execute a comprehensive
                      implementation plan and timeline for mission-critical activities and
                      legislative mandates, and (3) communicate its implementation plan
                      and timeline to certain key stakeholders.

1
  Both the Board of Governors of the Federal Reserve System (Board) Office of Inspector General (OIG)
and the Department of the Treasury (Treasury) OIG currently have a role in overseeing CFPB. Under
provisions of the Dodd-Frank Act, the Board OIG is responsible for overseeing CFPB. At the same time,
the Treasury OIG has oversight authority of Treasury’s interim activities to establish CFPB.


                      Review of CFPB Implementation Planning Activities                         Page 1
                      To accomplish our objective, we reviewed the Dodd-Frank Act,
                      researched available studies describing best practices and lessons
                      learned for comparable implementation efforts,2 assessed relevant
                      CFPB documentation, and interviewed CFPB officials. We
                      conducted our fieldwork from April 2011 to July 2011. Appendix 1
                      contains a detailed description of our objective, scope, and
                      methodology.

                      In brief, we found that CFPB identified and documented
                      implementation activities critical to standing up the agency’s
                      functions and necessary to address certain Dodd-Frank Act
                      requirements. Furthermore, CFPB developed and is implementing
                      appropriate plans that support ongoing operations as well as the
                      transfer of employees and functions that will occur on July 21,
                      2011. In addition, CFPB communicated its planning and
                      implementation of standup activities to internal stakeholders, and
                      provided information to other consumer regulatory agencies
                      regarding its transfer planning. Nevertheless, CFPB’s operational
                      success will depend, in part, on its ability to effectively execute its
                      plans. As part of our ongoing oversight efforts, we plan to continue
                      to monitor the progress of CFPB’s implementation activities. In a
                      written response to a draft of this report, CFPB acknowledged our
                      report’s findings. CFPB’s response is provided as Appendix 3.


Background
                      Title X of the Dodd-Frank Act, the Consumer Financial Protection
                      Act of 2010, established CFPB as an independent entity within, but
                      autonomous from, the Federal Reserve System. The Dodd-Frank
                      Act provided CFPB with the authority to implement and, as
                      applicable, enforce federal consumer financial law consistently to
                      ensure that all consumers have access to markets for financial
                      products and services, and that these markets are fair, transparent,
                      and competitive. As mandated by the Dodd-Frank Act, a
                      presidentially appointed, Senate-confirmed director is to lead the
                      agency. A CFPB Director has not yet been appointed.

2
  A July 2003 Government Accountability Office report described the lessons learned from private and
public sector mergers, acquisitions, and transformations to help the then-newly created Department of
Homeland Security merge 22 federal agencies. Among other things, it identified setting implementation
goals and timelines as a best practice. In addition, a May 2010 study commissioned by Treasury
identified best practices and activities critical to establishing an agency’s mission.


                      Review of CFPB Implementation Planning Activities                         Page 2
                      The Treasury Secretary designated July 21, 2011, as the date that
                      certain authorities will transfer from seven federal regulatory
                      agencies3 to CFPB. Accordingly, CFPB has been preparing for the
                      rulemaking and supervisory functions that are being transferred
                      from the other agencies. Until a CFPB Director is in place, section
                      1066(a) of Title X grants the Treasury Secretary the authority to
                      carry out CFPB functions found under subtitle F of Title X.4 On the
                      designated transfer date, subtitle F grants CFPB the authority to:

                      •   prescribe rules, issue orders, and produce guidance related to
                          the federal consumer financial laws that were, prior to the
                          designated transfer date, within the authority of the Board,
                          OCC, OTS, FDIC, and NCUA;

                      •   conduct examinations (for federal consumer financial law
                          purposes) of banks, savings associations, and credit unions with
                          total assets in excess of $10 billion, and any affiliates thereof;

                      •   prescribe rules, issue guidelines, and conduct a study or issue a
                          report (with certain limitations) under the enumerated consumer
                          laws that were previously within the authority of the Federal
                          Trade Commission prior to the designated transfer date;

                      •   conduct all consumer protection functions relating to the Real
                          Estate Settlement Procedures Act of 1974, the Secure and Fair
                          Enforcement for Mortgage Licensing Act of 2008, and the
                          Interstate Land Sales Full Disclosure Act that were previously
                          within the authority of the Secretary of HUD prior to the
                          designated transfer date;

                      •   enforce all orders, resolutions, determinations, agreements, and
                          rulings that have been issued, made, prescribed, or allowed to
                          become effective prior to the designated transfer date by any
                          transferor agency or by a court of competent jurisdiction, in the
                          performance of consumer financial protection functions that are
                          transferred to CFPB, with respect to a bank, savings

3
  Pursuant to the Dodd-Frank Act, those agencies transferring functions to the CFPB include the Board,
Federal Deposit Insurance Corporation (FDIC), Federal Trade Commission, National Credit Union
Administration (NCUA), Office of the Comptroller of the Currency (OCC), Office of Thrift Supervision
(OTS), and Department of Housing and Urban Development (HUD).
4
  These transferred authorities are found in sections 1061 and 1063 of the Dodd-Frank Act, which are
effective on July 21, 2011, the designated transfer date.


                      Review of CFPB Implementation Planning Activities                          Page 3
                          association, or credit union with total assets in excess of $10
                          billion, and any affiliates thereof; and

                      •   replace the Board, OCC, OTS, FDIC, NCUA, and HUD in any
                          lawsuit or proceeding that was commenced by or against one of
                          the transferor agencies prior to the designated transfer date,
                          with respect to a consumer financial protection function
                          transferred to CFPB.

                      In addition to the transferred functions, CFPB has newly-
                      established federal consumer financial regulatory authorities. The
                      Treasury Secretary is not permitted to perform certain newly-
                      established CFPB authorities if there is no Director by the
                      designated transfer date. For example, if there is no Director by the
                      designated transfer date, in general, the Treasury Secretary is not
                      permitted to exercise the authority to:5

                      •   prohibit unfair, deceptive, or abusive acts or practices under
                          subtitle C in connection with consumer financial products and
                          services;

                      •   prescribe rules and require model disclosure forms under
                          subtitle C to ensure that the features of a consumer financial
                          product or service are fairly, accurately, and effectively
                          disclosed both initially and over the term of the product or
                          service;

                      •   prescribe rules under section 1022 relating to, among other
                          things, the filing of limited reports to CFPB for the purpose of
                          determining whether a nondepository institution should be
                          supervised by CFPB;

                      •   supervise nondepository institutions under section 1024,
                          including the authority to (a) prescribe rules defining the scope
                          of nondepository institutions subject to CFPB’s supervision,
                          (b) prescribe rules establishing recordkeeping requirements that
                          CFPB determines are needed to facilitate nondepository
                          supervision, and (c) conduct examinations of nondepository
                          institutions.
5
 CFPB’s newly-established authorities are found throughout Title X of the Dodd-Frank Act, including
section 1024, and multiple provisions of section 1022 and subtitle C. According to the text of the
Dodd-Frank Act, the Treasury Secretary’s authority under section 1066(a) does not extend to these
newly-established authorities.


                      Review of CFPB Implementation Planning Activities                         Page 4
                      Over the past year, CFPB officials have been designing the
                      organizational structure, building a work force plan, and
                      establishing the operations of CFPB. In planning for the possible
                      creation of CFPB, in May 2010, Treasury commissioned a research
                      study to gain further insight regarding the successes, challenges,
                      and areas of improvement for federal mergers, stand-ups, and
                      reorganizations. The study identified core business activities, such
                      as payroll and information technology systems, among others, that
                      are critical to a new agency. The study also identified best
                      practices that included comprehensive implementation planning for
                      core operational areas, as well as activities critical to the mission of
                      an agency.

                      In addition, the Dodd-Frank Act requires CFPB to implement several
                      activities related to developing and standing up its functions,
                      programs, offices, and operations. For example, CFPB is to
                      establish specific offices and positions within its organizational
                      structure. Additional Dodd-Frank Act implementation requirements
                      relate to identifying CFPB’s primary mission areas, transferring
                      other agencies’ employees, developing a uniform pay and
                      classification system, building information security processes, and
                      establishing financial management and accounting capabilities.

                      To accomplish these standup activities and to operate the agency’s
                      core mission areas, CFPB plans to have, by the end of 2012, more
                      than 1,200 employees on-board in its Washington, DC; Chicago;
                      New York; and San Francisco offices.

                      As shown in the chart below, as of June 21, 2011, the Treasury
                      Secretary (or designee) has requested more than $135 million for
                      standup activities from the Board.6 Furthermore, CFPB projects that
                      it will spend approximately $143 million in fiscal year 2011 and
                      approximately $329 million in fiscal year 2012.7




6
  The Dodd-Frank Act requires the Board to transfer funds to CFPB from the combined earnings of the
Federal Reserve System.
7
  These figures were reported in the Appendix to the Budget of the United States Government, Fiscal
Year 2012.


                      Review of CFPB Implementation Planning Activities                        Page 5
              Summary of CFPB’s Funding Requests to the Board, as of June 21, 2011
              (in millions)




Results of the Joint Review
              CFPB Identified and Documented Mission-Critical Activities and
              Legislative Mandates

              Based on CFPB planning documents and interviews of agency
              officials, we found that CFPB identified and documented
              implementation activities critical to standing up the agency’s
              functions and necessary to address certain Dodd-Frank Act
              requirements. In addition to activities necessary to establish the
              primary mission areas identified by the Dodd-Frank Act, such as
              supervision and enforcement, CFPB designed its organizational
              structure to account for other mandated functional units as well,
              including offices for financial education, fair lending, and service
              member affairs, among others. Moreover, CFPB identified the
              activities necessary to complete the transfer of employees and data
              from the transferring agencies in a timely manner. CFPB identified
              in its plans the need to establish a pay and classification system,
              information security processes, and financial management
              capabilities—areas required by the Dodd-Frank Act.

              In addition, CFPB prepared documentation addressing critical
              activities vital to establishing a new agency. For example, CFPB’s
              plans identified core business activities—such as securing office
              space, establishing procurement capabilities, building payroll and



              Review of CFPB Implementation Planning Activities              Page 6
benefits functions, and designing an information technology
infrastructure, among others.

CFPB Developed and Is Implementing Appropriate Plans

We found that CFPB developed and is implementing appropriate
plans that support ongoing operations as well as the transfer of
employees and functions that will occur on July 21, 2011. CFPB
planned for mission-critical standup activities and certain Dodd-
Frank Act requirements. In July 2010, Treasury officials created a
document that, according to a CFPB official, served as a roadmap
for implementation. Overall, CFPB’s approach was to create
detailed planning documents at the division level to provide input
for the agency-wide strategic plan. Most CFPB divisions maintained
a draft strategic plan, organizational chart, and “dashboards” that
tracked implementation progress and potential risks. The division-
level strategic plans generally included division-level missions,
goals, deliverables, and coordination activities. We also noted that
these plans included multiple phases that span beyond the
designated transfer date.

CFPB also created several agency-wide documents that identified
and tracked priorities and milestones for implementation. For
example, one priority for CFPB was the transfer of employees from
other agencies. To implement this priority, CFPB maintained a
detailed recruitment schedule, developed coordination agreements
with other agencies, and allocated resources from the various
divisions to timely complete the employee transfer process.

In reviewing the agency’s planning documents and discussing the
standup status with CFPB officials, we found that the agency has
completed elements of its implementation plans and is making
progress on others, including its overall strategic plan.
Nevertheless, CFPB’s operational success will depend, in part, on
its ability to effectively execute its plans.

The following is an overview of the status of CFPB’s
implementation progress for certain activities identified in the
agency’s plans.

Leadership Positions As of June 17, 2011, CFPB had hired four of
its six planned associate directors or equivalent positions (Chief
Operating Officer; General Counsel; Associate Director for



Review of CFPB Implementation Planning Activities                  Page 7
                      Research, Markets, and Regulations; and Associate Director of
                      Consumer Education and Engagement). Within CFPB’s divisions, 19
                      of the 35 assistant director or equivalent positions have been filled.
                      We were told that the agency has hired a Regional Director for its
                      San Francisco office and is in the process of recruiting leaders for
                      its Washington, DC; Chicago; and New York offices. For the status
                      of CFPB’s headquarters leadership positions, see Appendix 2.

                      According to a CFPB official, in the absence of a CFPB Director,
                      the agency is prepared to operate under the Treasury Secretary’s
                      authority beyond the designated transfer date. However, until a
                      Director is in place, as noted in the Background section of this
                      report, CFPB will have limited authority to conduct its
                      nondepository institutions supervisory program as well as some
                      other new responsibilities authorized by the Dodd-Frank Act.

                      Staffing and Transfer of Employees As of June 30, 2011, CFPB
                      offered transfers to 349 employees from other federal regulatory
                      agencies.8 As of that date, 172 employees have accepted CFPB’s
                      offer, and CFPB officials were waiting for additional responses to
                      their offers. According to timelines established in agency planning
                      documents, CFPB was on track to bring those employees on-board
                      within 90 days of the designated transfer date, in accordance with
                      the Dodd-Frank Act.

                      CFPB has also been hiring external applicants to fill positions in its
                      various divisions. A CFPB official estimated that they have received
                      several thousand external applications. According to CFPB officials,
                      the agency is meeting its overall staffing targets; however, hiring
                      will continue beyond the designated transfer date, particularly in
                      the Supervision, Fair Lending, and Enforcement division and the
                      Consumer Education and Engagement division.

                      Transfer of Information According to CFPB documents, the agency
                      has information sharing agreements in place with each federal
                      regulatory agency that is transferring functions to CFPB, as well as
                      5 state banking regulator associations, bank and financial service
                      regulators in more than 30 states, and other entities and agencies




8
 This figure does not include other federal agency employees who may have applied to an external
posting for a position at CFPB.


                      Review of CFPB Implementation Planning Activities                        Page 8
                      such as the Federal Financial Institutions Examination Council9 and
                      the Financial Crimes Enforcement Network.10 According to officials,
                      CFPB has received a substantial amount of information from the
                      federal regulatory agencies in preparation for its assumption of
                      supervisory authorities. CFPB is analyzing this information as it sets
                      its supervisory priorities. Based on the agency’s review of
                      supervisory data and other considerations, CFPB has started to
                      plan its initial examinations. According to a CFPB official, the
                      agency plans to use an OTS system as a “bridge system” to
                      maintain supervisory information until the agency is able to develop
                      its own system. Additionally, a core handbook of examination
                      policies and procedures was nearing completion as of July 1,
                      2011.

                      According to a CFPB official, the agency received information from
                      one of the current federal regulatory agencies on some of the
                      nondepository affiliates of the depository institutions that will come
                      under CFPB’s supervision. In addition, in preparation for its
                      nondepository supervisory responsibilities, CFPB is collecting data
                      from other sources, including state regulators, and conducting
                      external industry research. CFPB is also collecting comments on
                      how it should define “larger participants” in other industries
                      (beyond mortgages, payday loans, and private student loans) as it
                      prepares to launch a new federal program for nondepository
                      supervision.11

                      Payroll, Compensation, and Benefits On February 13, 2011, CFPB
                      developed an interim pay structure to implement a payroll system.
                      On May 8, 2011, the agency refined its pay structure, which
                      comprises 9 pay bands consisting of 18 pay ranges. According to
                      CFPB documents, the pay structure was designed to comparably
                      align with the pay scales at the Board and OCC. In July 2011,

9
  The Federal Financial Institutions Examination Council is a formal interagency body empowered to
prescribe uniform principles, standards, and report forms for the federal examination of financial
institutions by the Board, FDIC, NCUA, OCC, and OTS, and to make recommendations to promote
uniformity in the supervision of financial institutions.
10
   The Financial Crimes Enforcement Network, a Treasury bureau, promotes the nation’s security
through strengthened U.S. and international financial systems. This role includes ensuring safer and
more transparent domestic and international financial systems through the administration of the Bank
Secrecy Act.
11
   Defining Larger Participants in Certain Consumer Financial Products and Services Markets, 76 Fed.
Reg. 38059 (June 29, 2011) (12 C.F.R. Chapter X). This Notice and Request for Comment document is
available on the following website: http://www.gpo.gov/fdsys/pkg/FR-2011-06-29/pdf/2011-
15984.pdf.


                      Review of CFPB Implementation Planning Activities                       Page 9
                      CFPB completed enrollment for various employee benefits using
                      CFPB’s own benefits program, according to a CFPB official. CFPB’s
                      Chief Operating Officer did not anticipate any significant human
                      resource challenges that would hinder the agency from standing
                      up.

                      Procurement CFPB established a procurement function, led by an
                      Assistant Director for Procurement, and has been entering into
                      contracts for goods and services. Treasury also had awarded some
                      contracts on CFPB’s behalf.

                      Information Technology and Financial Management Systems
                      According to CFPB documents, the agency plans to continue using
                      Treasury’s Bureau of the Public Debt Administrative Resource
                      Center to provide for its financial management. CFPB also plans to
                      continue relying on Treasury’s infrastructure for its general support
                      systems, such as email. Contractors provide additional information
                      technology support. Going forward, CFPB has detailed plans and
                      timelines to implement its own information technology
                      infrastructure. According to the Chief Operating Officer, the
                      agency’s systems currently being used or in development follow
                      Treasury’s protocols for information security.

                      Regional Structure and Office Space In addition to its planned
                      headquarters office building in Washington, DC, CFPB plans to
                      establish three regional offices, located in San Francisco, Chicago,
                      and New York. According to a CFPB official, the agency finalized a
                      contract to secure the needed office space for the regional
                      locations. Because CFPB anticipates experiencing short-term
                      capacity challenges in Washington, DC, the agency plans to
                      temporarily secure other office space in addition to its current
                      location. The agency plans to eventually move into a permanent
                      location at 1700 G Street NW, Washington, DC, which currently
                      serves as OTS’s headquarters.12 CFPB also plans to implement a
                      nationwide teleworking framework.

                      Examiner Training CFPB is planning to train and staff a single pool
                      of examiners for both bank and nondepository supervision. CFPB
                      has an agreement with the Board to provide consulting services for


12
  Pursuant to the Dodd-Frank Act, OTS’s powers and authorities will transfer to other federal financial
regulators on July 21, 2011. Accordingly, OCC assumes ownership of the OTS building located at 1700
G Street, NW. CFPB has a letter of intent to enter into a lease with OCC to occupy this building.


                      Review of CFPB Implementation Planning Activities                        Page 10
the development of some examiner training modules. The agency
plans to provide 2 weeks of initial orientation and interpersonal
skills training, followed by 2 weeks of case-based, consumer
examination training for new examiners. A CFPB official told us
that training will be delivered through a combination of internal
instructors and vendor-led programs. In this regard, the first
training sessions have started.

Consumer Response Center According to CFPB officials, a
Consumer Response Center will be operational by July 21, 2011,
but will not be fully functional. CFPB is expected to take website
inquiries and phone calls, initiate the complaint inquiry process, and
begin case management for tracking complaints. However, the
agency plans to initially only process complaints about credit cards.
According to a CFPB timeline, the agency plans to process
complaints about other consumer financial products over the
course of the next year. Until then, CFPB will refer consumers to
the appropriate federal regulators to handle complaints on other
products. A CFPB official told us that they have an understanding
with the other federal regulators as to the process for handling the
complaints and that the agency is in the process of formalizing this
understanding in agreements.

CFPB Communicated Its Planning and Implementation Activities

We found that CFPB communicated its planning and
implementation of standup activities to internal stakeholders, and
provided information regarding its transfer planning to other federal
regulatory agencies.

Internally, through various CFPB-established committees and
working groups, agency leadership shared implementation planning
activities, schedules, and progress updates with staff. According to
a CFPB official, these committees and working groups operate at
three decision-making levels: (1) the “strategic level” with the
Special Advisor to the Secretary of the Treasury on CFPB (Special
Advisor) and the senior CFPB leadership team; (2) the “operational
level” with the divisions’ leadership; and (3) the “tactical level”
with working teams from within each of the divisions. In addition,
the Special Advisor regularly meets with senior agency leadership
to discuss the status of implementation activities as well as
potential challenges. The Chief of Staff also prepares and
distributes a weekly report to the agency’s staff that provides an


Review of CFPB Implementation Planning Activities              Page 11
                   overview of the week's events, updates on policies, updates on
                   outreach activities, the latest news from management, and the
                   Special Advisor’s proposed schedule for the upcoming week.

                   Externally, CFPB has shared planning information and timelines
                   with the other federal regulatory agencies affected by the
                   employee transfer process. According to a CFPB official, the
                   agency also has held “town hall meetings” at five of the federal
                   regulatory agencies that are transferring staff to CFPB. In addition,
                   CFPB and each of the transferring agencies coordinated the
                   process to guide the transfer of employees.

                   CFPB has posted its planned organizational structure as well as its
                   agency mission on its website. Several updates related to
                   implementation activities also have been posted. For example,
                   CFPB announced when it was able to start hiring staff. CFPB also
                   publicly announced its plan to occupy 1700 G Street, NW,
                   Washington, DC, as its permanent headquarters. Further, CFPB
                   also has publicly released budget and high-level spending
                   information. In addition to its website, CFPB launched a YouTube
                   channel, Twitter account, and Facebook account to share some of
                   its activities with the public.

                                               *******

                   We appreciate the courtesies and cooperation provided to our
                   staffs during the evaluation. If you wish to discuss the report, you
                   may contact our respective offices at the Board and CFPB OIG,
                   (202) 973-5000, or the Treasury OIG, (202) 927-5400. Major
                   contributors to this report are listed in Appendix 4.


/s/                                                         /s/

Anthony J. Castaldo                                         Marla A. Freedman
Associate Inspector General for                             Assistant Inspector General for Audit
Inspections and Evaluations                                 Treasury OIG
Board and CFPB OIG




                   Review of CFPB Implementation Planning Activities                     Page 12
                      Appendix 1
                      Objective, Scope, and Methodology




                      We conducted our evaluation as part of our respective offices’ joint
                      oversight responsibilities of CFPB. Our objective was to evaluate
                      CFPB’s development and execution of implementation plans and
                      timelines to establish the agency’s functions, including certain
                      activities required by the Dodd-Frank Act. More specifically, we
                      assessed CFPB’s efforts to (1) identify mission-critical activities
                      and legislative mandates, (2) develop and execute a comprehensive
                      implementation plan and timeline for mission-critical activities and
                      legislative mandates, and (3) communicate its implementation plan
                      and timeline to certain key stakeholders. We conducted our
                      fieldwork from April 2011 to July 2011.

                      To accomplish our objective, we performed the following work:

                          •   We reviewed Title X of the Dodd-Frank Act and analyzed the
                              actions CFPB has taken or is planning to take to meet certain
                              requirements related to standing up the new agency.

                          •   We compared CFPB’s implementation planning efforts to
                              best practices identified by the Government Accountability
                              Office,13 as well as a lessons learned report commissioned
                              by the Department of the Treasury for the purpose of
                              establishing CFPB.14

                          •   We assessed relevant CFPB planning documentation and
                              determined the status of standing up the agency, with a
                              focus on critical areas identified in its implementation plans.

                          •   We interviewed CFPB officials, including the Chief of Staff,
                              the Chief Operating Officer, the Deputy General Counsel, the
                              Assistant Director for Large Bank Supervision, and the
                              Assistant Director for Nonbank Supervision.

13
   GAO-03-669: Results-Oriented Cultures; Implementation Steps to Assist Mergers and Organizational
Transformations, July 2003. The report described the lessons learned from private and public sector
mergers, acquisitions, and transformations to help the then-newly created Department of Homeland
Security merge 22 federal agencies. Among other things, it identified as a best practice to “set
implementation goals and a timeline to build momentum and show progress from day one.”
14
   Booz, Allen, Hamilton report to Treasury: Research & Analysis: Organizational Stand-ups Lessons
Learned and Key Insights, May 2010. The study identified core business activities, such as payroll and
information technology systems, among others, that are vital to a new agency. The study also identified
best practices that included comprehensive implementation planning for core operational areas, as well
as activities critical to the mission of an agency.


                      Review of CFPB Implementation Planning Activities                        Page 13
Appendix 1
Objective, Scope, and Methodology




We performed this review in accordance with the Quality
Standards for Inspection and Evaluation, issued by the Council of
the Inspectors General on Integrity and Efficiency. Consistent with
the evaluation objective, we did not assess CFPB’s overall internal
control or management control structure, review its budgeting
process, obtain data from its information systems, or assess the
effectiveness of CFPB’s information system controls. In addition,
we did not perform a detailed compliance review of all Dodd-Frank
Act requirements.




Review of CFPB Implementation Planning Activities             Page 14
                       Appendix 2
                       Status of Leadership Positions for CFPB’s Headquarters as of June 17, 2011




Division           Position                                                               Status
                   Director                                                               Vacant
Office of the      Deputy Director                                                        Vacant
Director           Special Advisor to the Secretary of the Treasury                       On-Board
                   Chief of Staff                                                         On-Board
                   Chief Operating Officer                                                On-Board
                   Assistant Director/Deputy Chief Operating Officer                      On-Board
                   Assistant Director for the Response Center                             Vacant
                   Assistant Director for Operations and Facilities                       Vacant
                   Assistant Director for Procurement                                     On-Board
Chief Operating
                   Chief Technology Officer                                               On-Board
Officer
                   Chief Information Officer                                              Vacant
                   Chief Financial Officer                                                Vacant
                   Assistant Director for Human Capital                                   On-Board
                   Assistant Director for Inclusion                                       Vacant
                   Assistant Director for FOIA, Privacy and Records                       Vacant
                   General Counsel                                                        On-Board
                   Principal Deputy General Counsel                                       On-Board
General Counsel    Deputy General Counsel                                                 On-Board
                   Deputy General Counsel                                                 On-Board
                   Administrative Law Judge Staff Director                                Vacant
                   Associate Director for Supervision, Fair Lending, and Enforcement      Vacant
Supervision,
                   Assistant Director for Large Bank Supervision                          On-Board
Fair Lending,
                   Assistant Director for Nonbank Supervision                             On-Board
and
                   Assistant Director for Enforcement                                     On-Board
Enforcement
                   Assistant Director for Fair Lending and Equal Opportunity              On-Board
                   Associate Director for Research, Markets, and Regulations              On-Board
                   Assistant Director for Research                                        On-Board
                   Assistant Director for Regulations                                     On-Board
Research,
                   Assistant Director for Card Markets and Deposit and Payments           On-Board
Markets, and
                       Markets
Regulations
                   Assistant Director for Mortgage Markets                                On-Board
                   Assistant Director for Credit Information Markets and Specialty        On-Board
                       Finance Markets
                   Associate Director of Consumer Education and Engagement                On-Board
                   Assistant Director for Financial Education                             Vacant
Consumer           Assistant Director for Consumer Engagement                             Vacant
Education and      Assistant Director for Older Americans                                 Vacant
Engagement         Assistant Director for Service Member Affairs                          On-Board
                   Assistant Director for Students                                        Vacant
                   Assistant Director for Community Affairs                               On-Board
                   Associate Director for External Affairs                                Vacant
                   Assistant Director for Media Relations                                 Vacant
                   Assistant Director for Legislative Affairs                             Vacant
External Affairs   Assistant Director for Intergovernmental Affairs                       Vacant
                   Assistant Director for Community Banks and Credit Unions               On-Board
                   Ombudsman                                                              Vacant
                   Consumer Advisory Board                                                Vacant



                       Review of CFPB Implementation Planning Activities               Page 15
Appendix 3
Management Comments




Review of CFPB Implementation Planning Activities   Page 16
Appendix 4
Major Contributors to This Report




Board of Governors of the Federal Reserve System
and Bureau of Consumer Financial Protection OIG

Timothy Rogers, OIG Manager
Anne Keenaghan, Senior Auditor
Margaret Angeloff, Auditor
Nancy Robinson, Auditor

Department of the Treasury OIG

Susan Barron, Audit Director
Amni Samson, Audit Manager
Alicia Bruce, Auditor-in-Charge
Kathryn Bustell, Auditor
John Tomasetti, Auditor




Review of CFPB Implementation Planning Activities   Page 17
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary of the Treasury
    Special Advisor to the Secretary of the Treasury on the
       Consumer Financial Protection Bureau
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Bureau of Consumer Financial Protection

    Chief of Staff
    Deputy General Counsel

Office of Management and Budget

    Treasury OIG Budget Examiner

Board of Governors of the Federal Reserve System

    Chief Operating Officer and Director, Management Division
    Senior Associate Director and Chief Financial Officer,
       Management Division




Review of CFPB Implementation Planning Activities   Page 18
